UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
GLADYS MENDOZA,
:
personal representative :
of ELIAS MENDOZA
:
Plaintiff,
:
:
:
v.
:
:
INSPIRA MEDICAL
:
CENTER VINELAND, :
SOUTH JERSEY
:
HEALTHCARE,
:
INSPIRA HEALTH
:
NETWORK, INC.,
:
ANDREW ZINN, M.D., :
THE HEART HOUSE,
:
NAEEM M. AMIN, M.D., :
AND KIDNEY AND
:
HYPERTENSION
:
SPECIALISTS, P.A.
:
Defendants. :
________________________

Civil No. 15-1337
(NLH/KMW)

OPINION

APPEARANCES:
JAMES R. RADMORE
TWO PENN CENTER, SUITE 520
1500 JFK BOULEVARD
PHILADELPHIA, PA 19102

Attorney for Plaintiff Gladys Mendoza.
1a

THOMAS J. HEAVEY
GROSSMAN & HEAVEY
1608 HIGHWAY 88 WEST, SUITE 200
BRICK, NJ 08724

Attorney for Defendants Inspira Medical
Center Vineland, South Jersey Health Care,
and Inspira Health Network, Inc.
DAVID P. BRIGHAM
STAHL & DELAURENTIS
10 E. CLEMENTS BRIDGE ROAD
RUNNEMEDE, NJ 08078

Attorney for Andrew Zinn, M.D. and The
Heart House.
HILLMAN, District Judge
This is a medical malpractice action brought
against a hospital and a cardiologist arising out of
their care of Elias Mendoza ("Mendoza") in March
2014. Currently before the Court are six motions:
(1)

Inspira Health Network's 1
Motion for Summary Judgment
(ECF No. 83);

(2)

Dr. Andrew Zinn, M.D. ("Dr.
Zinn") and The Heart House's
(collectively, the "Cardiology

1

Inspira Health Network, Inc. will be referred to herein as "IHN[.]"
Inspira Medical Center Vineland will be referred to herein as "IMC[.]"
The term "Inspira Defendants" is used to identify, collectively, IHN and
IMC.

2a

Defendants") Motion for
Summary Judgment (ECF No.
86);
(3)

Plaintiff Gladys Mendoza's
("Plaintiff") Motion for Partial
Summary Judgment as to IHN
(ECF No. 87);

(4)

Plaintiff's Motion in Limine to
Preclude IHN From Relying on
the Testimony of Dr. Tobia John
Mercuro (ECF No. 104);

(5)

Plaintiff's Motion in Limine to
Preclude IHN from Relying on
Any Expert Testimony at Trial
(ECF No. 105); and

(6)

The Cardiology Defendants'
Motion in Limine to Limit the
Trial Testimony of Dr. Bruce D.
Charash, M.D. (ECF No. 106).

For the reasons set forth in this Opinion,
IHN's Motion for Summary Judgment (ECF No. 83)
will be granted; the Cardiology Defendants' Motion
for Summary Judgment (ECF No. 86) will be
granted; Plaintiff's Motion for Parital Summary
Judgment (ECF No. 87) will be denied; and the
parties' Motions in Limine (ECF Nos. 104, 105 and
106) will be denied as moot.

3a

BACKGROUND
The Court takes its facts from the parties'
statements of undisputed material fact and this
Court's prior decisions in this matter. The Court
will note factual disputes where relevant.
I. Relevant Factual Background
On March 11, 2014, Mendoza went to the
Emergency Room at IMC Vineland complaining of
shortness of breath. Shortly thereafter, Mendoza
was admitted to the Intensive Care Unit. At the
time of his admission, Menodoza had long suffered
from end-stage renal disease, insulin dependent
diabetes mellitus, coronary artery disease, and
congestive heart failure.
Upon admission to IMC, Plaintiff was chiefly
cared for by the internal medicine group. (ECF No.
86-6, ¶¶4-7). A chest x-ray taken at IMC appeared
to show a fluid overload in Mendoza's lungs. As a
result, Mendoza's supervising physicians ordered a
cardiology consultation, which was ultimately
performed by Dr. Andrew Zinn, M.D. ("Dr. Zinn"),
and a nephrology consultation, which was performed
by Dr. Naeem M. Amin, M.D. ("Dr. Amin").
On March 15, 2014, Mendoza suffered both a
respiratory and cardiac arrest which led to a
permanent anoxic brain injury caused by lack of
oxygen. Plaintiff alleges that Mendoza's medical
episode was the result of medical negligence.
Specifically, Plaintiff's case appears to be principally

4a

based on a note entered in the Mendoza's discharge
summary, which states in relevant part:
HOSPITAL COURSE: Over the course of the
patient's hospital stay, he tolerated BiPAP
and required dialysis. Unfortunately[,] he
was unable to tolerate full treatments and
continued to build up fluid. The patient
unfortunately had some difficulty receiving
dialysis in our intensive care unit due to
staffing limitations, which continued to
exacerbate his continued difficulties with his
fluid overload state.
Mr. Mendoza passed away less than a year
later from acute respiratory failure, stemming from
a cardiac arrest and coronary artery disease.
II. Relevant Procedural History
Plaintiff filed an initial complaint on March 9,
2016 (ECF No. 1), and later filed an amended
complaint on March 22, 2016 (ECF No. 5) (the
"Amended Complaint"). The Amended Complaint
asserts claims against three sets of Defendants, the
Inspira Defendants and Cardiology Defendants
mentioned supra, as well as Dr. Amin and the
Kidney and Hypertension Specialists, P.A. (the
"Nephrology Defendants").
In August 2016, the Nephrology Defendants
and IMC moved for summary judgment, arguing
that Plaintiff's failure to comply with the Affidavit of
Merit Statute, N.J. State. Ann. § 2A:53A-27 et seq.,
required dismissal. This Court granted that motion
5a

on March 30, 2017 (the "March 30, 2017 Order").
(ECF No. 31).
Plaintiff timely filed a Motion for
Reconsideration, or in the alternative, a motion to
certify the March 30, 2017 Order for interlocutory
appeal. (ECF No.33). After full briefing, Plaintiff's
requests were denied by this Court on November 13,
2017. (ECF No. 42).
On October 10, 2018, Plaintiff filed a Partial
Motion for Summary Judgment solely against IHN
(the "October 10 Motion"). (ECF No. 59). Plaintiff
acknowledged that the Court previously dismissed
IMC, but argued that IHN is a separate entity with
distinct liability not previously resolved by the
Court's prior decisions.
On November 1, 2018, the Inpsira Defendants
filed a Cross-Motion to Amend the caption of this
matter along with their opposition to Plaintiff's
October 10 Motion for Partial Summary Judgment.
(ECF No. 63).
On January 11, 2019, Cardiology Defendants
filed a Motion for Summary Judgment. (ECF No.
71). Cardiology Defendants alleged that Plaintiff
had not established that Cardiology Defendants
deviated from the requisite standard of care.
By Opinion and Order dated April 24, 2019
(ECF No. 76) (the "April 21 Opinion and Order"),
this Court granted in part and denied in part the
Motion to Preclude filed by the Inspira Defendants
(ECF No. 57)' denied Plaintiff's first Motion for
6a

Partial Summary Judgment, without prejudice
(ECF No. 59); denied the Inspira Defendants'
Motion to Amend (ECF No. 63); and denied the
Cardiology Defendants' Motion for Summary
Judgment, without prejudice (ECF No. 71).
Ultimately, the Court invited the parties to
submit supplemental briefing on several issues. See
(ECF No. 75 at 10). The Court guided the parties on
what it expected in any supplemental filings.
Particularly, the Court encouraged IHN to address
why - as a matter of law, and, if applicable, as a
matter of undisputed fact - direct or vicarious
liability claims must be dismissed against IHN to
the same extent they were dismissed against IMC.
The Court also asked the parties to clarify whether
the Affidavit of Merit Statute applies to IHN.
In light of the standard of care offered by Dr.
Charash, discussed in further detail infra, of the
Cardiology Defendants and Plaintiff, the Court
requested clarification on what role, if any, the
Cardiology Defendants had in directing care for
Mendoza. The Court focused the parties on the
issue of whether the Cardiology Defendants had any
decision-making role regarding Mendoza's care.
Following issuance of the April 24, 2019
Opinion and Order, the parties filed renewed
motions for summary judgment, which are presently
before the Court.

7a

III. The Present Motions
As for Plaintiff's claims against the
Cardiology Defendants, Plaintiff relies upon the
expert reports 2 of Bruce D. Charash, M.D., F.A.C.C.
("Dr. Charash"). This Court previously examined
Dr. Charash's expert opinion.
The Court
summarized Dr. Charash's standard of care as
"requir[ing] treating Mr. Mendoza as if he could be
impacted by an acute coronary event, which further
placed him at risk for acute decompensation."
Mendoza v. Inspira Med. Ctr. Vineland, South
Jersey Health Care, No. 16-1337, 2019 U.S. Dist.
LEXIS 69402, *16 (D.N.J. April 24, 2019) (Hillman,
J.) (the "April 24 Opinion"). The Court noted that in
Dr. Charash's deposition, he stated: "[f]rom a
cardiac point of view this patient was drowning and
a cardiologist would have the responsibility to
protect the airway and to get the patient dialyzed."
Id.
The Court further analyzed Dr. Charash's
deposition testimony, which includes the following
remarks:
Q: . . . You would agree with me, would you
not, Doctor, that in your two reports you do
not criticize Dr. Zinn or any member of CADV
[ (The Heart House)] directly?
A: Correct. Because I was not provided any
discovery deposition testimony I had no
2

Dr. Charash prepared two reports for this case, one on July 23, 2018
and one on October 10 or 15, 2018.

8a

foundation to know who was making clinical
decisions.
Q: And is that still true as you sit here today,
Doctor?
A: Yes
Q: So as you sit here today you do not have
any direct criticisms of Dr. Zinn or any
physician at CADV; correct?
A: I don't know their specific role in the case.
Whoever was in charge of managing this
patient I would be critical of.
Q: Okay. And you know from your review of
the records that the attending physicians
managing this patient were the internal
medicine specialists at Inspira; true?
A: Yes. I mean some of the day-to-day, yes.
Q: Well, you know that they saw him every
day; don't you?
A: Yes, I said day-to-day.
Q: Correct. They were managing him day-today; correct?
A: Yes.
Id. at *15-17.

9a

The Cardiology Defendants produced an
affidavit executed by Dr. Zinn addressing the issues
this Court previously highlighted in its April 24,
2019 Opinion. According to Dr. Zinn's affidavit,
"[a]t Inspira, the admitting physician/group is the
coordinator of the patient's care and oversees same
throughout his hospitalization, including the
determination of what specialty consultations are
required and selecting the physicians/groups to
perform the specialty consultations." (ECF No. 86-6,
¶3). The record shows that, upon admission to the
hospital, Mendoza was chiefly cared for by the
internal medicine group and/or the pulmonary
consultants. (ECF No. 86-6, ¶¶4-7).
Additionally, IHN was deposed to determine
what involvement it had in managing and staffing
IMC. IHN produced Dr. Steven Linn, M.D. ("Dr.
Linn") as its corporate representative. Dr. Linn
testified that he was the Chief Medical Officer at
IHN. (ECF No. 97-9 ("Linn Dep.") at 1T6:14-15).
Dr. Linn was asked whether he has any relationship
with the scheduling of whether or not there are
cardiologists available at Inspira?" (Linn Dep. at
1T7:14-16). Dr. Linn testified that "I make sure
that we have cardiology available." (Linn Dep. at
1T7:20-21). In clarifying IHN's role, Dr. Linn later
testified that "actually, each group provides
continuous coverage. My responsibility is to make
sure there's an emergency call list" in case coverage
lapses. (Linn Dep. at 1T9:17-22). The remainder of
Dr. Linn's deposition addressed the relationship
between IHN and the Cardiology Defendants.

10a

With the benefit of the parties' supplemental
briefing, the Court will now address the merits of
the parties' dispute.
ANALYSIS
A.

Subject Matter Jurisdiction

This Court possesses subject matter
jurisdiction over this case pursuant to 28 U.S.C. §
1332.
B.

Motion
for
Standard

Summary

Judgment

Summary judgment is appropriate where the
Court is satisfied that "'the pleadings, depositions,
answers to interrogatories, and admissions on file,
together with the affidavits if any,' . . . demonstrate
the absence of a genuine issue of material fact" and
that the moving party is entitled to a judgment as a
matter of law. Celotex Corp. v. Catrett, 477 U.S.
317, 322-23 (1986) (citing Fed. R. Civ. P. 56).
An issue is "genuine" if it is supported by
evidence such that a reasonable jury could return a
verdict in the nonmoving party's favor. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A fact
is "material" if, under the governing substantive
law, a dispute about the fact might affect the
outcome of the suit. Id. "In considering a motion for
summary judgment, a district court may not make
credibility determinations or engage in any
weighing of the evidence; instead, the non-moving
party's evidence 'is to be believed and all justifiable
11a

inferences are to be drawn in his favor.'" Marino v.
Indus. Crating Co., 358 F. 3d 241, 247 (ed Cir. 2004)
(citing Anderson, 477 U.S. at 255).
Initially, the moving party bears the burden
of demonstrating the absence of a genuine issue of
material fact. Celotex,, 477 U.S. at 323 ("[A] party
seeking summary judgment always bears the initial
responsibility of informing the district court of the
basis for its motion, and identifying those portions of
"the
pleadings,
depositions,
answers
to
interrogatories, and admissions on file, together
with the affidavits, if any,' which it believes
demonstrate the absence of a genuine issue of
material fact."); see Singletary v. Pa. Dep't of Corr.,
266 F.3d 186, 192 n.2 (3d Cir. 2001) (“Although the
initial burden is on the summary judgment movant
to show the absence of a genuine issue of material
fact, ‘the burden on the moving party may be
discharged by “showing” — that is, pointing out to
the district court — that there is an absence of
evidence to support the nonmoving party’s case’
when the nonmoving party bears the ultimate
burden of proof.” (citing Celotex, 477 U.S. at 325)).
Once the moving party has met this burden, the
nonmoving party must identify, by affidavits or
otherwise, specific facts showing that there is a
genuine issue for trial. Celotex, 477 U.S. at 324. A
“party opposing summary judgment ‘may not rest
upon the mere allegations or denials of the . . .
pleading[s].’” Saldana v. Kmart Corp., 260 F.3d 228,
232 (3d Cir. 2001). For “the non-moving party[] to
prevail, [that party] must ‘make a showing sufficient
to establish the existence of [every] element
essential to that party’s case, and on which that
12a

party will bear the burden of proof at trial.’” Cooper
v. Sniezek, 418 F. App’x 56, 58 (3d Cir. 2011) (citing
Celotex, 477 U.S. at 322). Thus, to withstand a
properly supported motion for summary judgment,
the nonmoving party must identify specific facts and
affirmative evidence that contradict those offered by
the moving party. Anderson, 477 U.S. at 257.
C. Motions Relating to IHN
Plaintiff moves for Partial Summary
Judgment against IHN and IHN moves for
Summary Judgment against Plaintiff. The parties’
disputes distill down to: (1) the nature of any
remaining direct claim 3 against IHN as a separate

3

As this Court previously noted, Plaintiff’s Amended Complaint is
unclear on whether it alleges direct claims against IHN or simply alleges
that IHN’s liability derives from IMC’s. A review of Plaintiff’s
Amended Complaint suggests that the only claim being advanced is one
for derivative liability. To the extent Plaintiff asserts that IHN’s liability
is derivative of IMC’s, that claim fails as this Court already dismissed
the inadequate staffing claim against IMC. See Mendoza, 2019 U.S.
Dist. LEXIS 69402, at *6 (“The direct and vicarious (to the extent they
were asserted) liability claims based on inadequate staffing were also
dismissed . . . [on] motion . . . filed by and granted for IMC.”); see gen.
Grazier v. City of Phila., 328 F.3d 120, 124 (3d Cir. 2003) (citing City
of Los Angeles v. Heller, 475 U.S. 796, 89 L. Ed. 2d 806, 106 S. Ct.
1571 (1986)) (where claims against a primary tortfeasor were dismissed,
court found that there could be no derivative liability for those same
claims). To the extent Plaintiff suggests in her briefing that she is
pursuing a direct claim against IHN, such would appear to be an attempt
to expand the scope of the Amended Complaint through briefing, a
practice long held to be improper. Pennsylvania ex rel. Zimmerman v.
Pepsico, Inc., 836 F.2d 173, 181 (3d Cir. 1988) (“It is axiomatic that the
complaint may not be amended by the briefs”). Even assuming such a
claim is properly before the Court, for the reasons discussed below, it
lacks merit.

13a

entity 4 and alleged tortfeasor, (2) whether Plaintiff
was required to file an Affidavit of Merit to proceed
with the inadequate staffing claim against IHN, and
(3) whether the evidence before the Court is
sufficient to permit Plaintiff’s inadequate staffing
claim to proceed. For the reasons that follow, the
Court concludes that, whether or not an Affidavit of
Merit is required, Plaintiff’s claim against IHN fails
as a matter of law.
i.

Whether Plaintiff Was Required to File
an Affidavit of Merit to Proceed
Against IHN

IHN argues that Plaintiff was required to
submit an Affidavit of Merit in support of its claim
and failed to do so, which requires dismissal.
Plaintiff argues that, because IHN is not a “health
care facility” as that term is defined by the Affidavit
of Merit Statute, Plaintiff’s case against IHN may
proceed without need for an Affidavit of Merit.
The Affidavit of Merit Statute provides:

4

The parties have spent a substantial portion of their briefs arguing over
whether IHN – like IMC – was previously dismissed from this case
through the Court’s March 30, 2017 Opinion. Such arguments, however,
do little to address the substantive issues remaining before this Court,
and instead, serve only as distraction. Certainly, both sides have
contributed to any confusion that may exist. See Mendoza, 2019 U.S.
Dist. LEXIS 69402, at *8-9 (“Clearly, precision has been lacking by
both Plaintiff and [the Inspira Defendants].”). As explained in this
Opinion, the issue is not whether IHN is “in the case.” The issue is
whether Plaintiff has a remaining and viable claim, both procedurally
and substantive, against that defendant.

14a

In any action for damages for personal
injuries, wrongful death or property damage
resulting from an alleged act of malpractice or
negligence by a licensed person in his
profession or occupation, the plaintiff shall,
within 60 days following the date of filing of
the answer to the complaint by the defendant,
provide each defendant with an affidavit of an
appropriate licensed person that there exists
a reasonable probability that the care, skill or
knowledge exercised or exhibited in the
treatment, practice or work that is the subject
of the complaint, fell outside acceptable
professional or occupational standards or
treatment practices. The court may grant no
more than one additional period, not to exceed
60 days, to file the affidavit pursuant to this
section, upon a finding of good cause.
N.J. Stat. § 2A:53A-27.
Generally, New Jersey courts consider three
elements when analyzing whether the statute
applies to a particular claim: (1) whether the action
is for “damages for personal injuries, wrongful death
or property damage” (nature of injury); (2) whether
the action is for “malpractice or negligence” (cause of
action); and (3) whether the “care, skill or
knowledge exercised or exhibited in the treatment,
practice or work that is the subject of the complaint
[] fell outside acceptable professional or occupational
standards or treatment practices” (standard of care).
See Couri v. Gardner, 801 A.2d 1134, 1137 (2002)
(quoting N.J. Stat. Ann. § 2A:53A-27).

15a

It appears that all three of these inquiries are
satisfied in this case. Certainly, Plaintiff’s
allegations arise from damages for personal injuries.
It is also clear that Plaintiff’s claim sounds in
medical negligence or malpractice. See (ECF No. 5,
¶11). While Plaintiff’s Amended Complaint does not
fully flesh out the scope of her inadequate staffing
claim, the Amended Complaint’s allegations provide
context as to Plaintiff’s allegations. Specifically, as
against IHN, Plaintiff’s Amended Complaint alleges
that Mendoza was “negligently treated, resulting in
brain damage, inability to ambulate, as well as
damage to his heart . . . .” (ECF No. 5, ¶11). The
Amended Complaint also alleges that IHN is liable
“as a matter of corporate liability” for the harm
Mendoza suffered. (ECF No. 5, ¶¶41-43). Based
upon those claims, the Court concludes – as it did
previously – that Plaintiff’s claim is best
characterized as one sounding in medical negligence
or medical malpractice. As this Court previously
held, “[i]t is not within a lay person’s knowledge as
to what an adequately staffed intensive care unit
looks like.” Mendoza, 2017 U.S. Dist. LEXIS 186755,
at *12. As this Court observed, “decisions concerning
staffing involve specialized knowledge” and “require
explanation by an expert.” Id. For that reason, this
Court previously concluded that an Affidavit of
Merit is required for the pursuit of such claims. Id.
at 13.
Nonetheless, Plaintiff maintains that because
IHN is not a “licensed person” under the Affidavit of
Merit Statute, no Affidavit of Merit is required. The
statute provides that a “licensed person,” in the
context of medical negligence claims includes a
16a

person licensed as “a physician in the practice of
medicine or surgery” and “a health care facility[.]”
See N.J. Stat. Ann. § 2A:53A-26(f)-(m).
As relevant to this matter, the term “health
care facility” means:
the facility or institution, whether public or
private, that is engaged principally in
providing services for health maintenance
organizations, diagnosis, or treatment of
human disease, pain, injury, deformity, or
physical condition, including, but not limited
to, a general hospital, special hospital, mental
hospital, public health center, diagnostic
center, treatment center, rehabilitation
center, extended care facility, skilled nursing
home, nursing home, intermediate care
facility, tuberculosis hospital, chronic disease
hospital, maternity hospital, outpatient clinic,
dispensary, home health care agency,
residential health care facility, dementia care
home, and bioanalytical laboratory (except as
specifically excluded hereunder), or central
services facility serving one or more such
institutions but excluding institutions that
provide healing solely by prayer and
excluding such bioanalytical laboratories as
are independently owned and operated, and
are not owned, operated, managed, or
controlled, in whole or in part, directly or
indirectly by any one or more health care
facilities, and the predominant source of
business of which is not by contract with
health care facilities within the State of New
Jersey and which solicit or accept specimens
17a

and operate predominantly in interstate
commerce.
N.J. Stat. Ann. § 26:2H-2.
It appears IHN does not fall neatly within the
definition of “licensed person.” Such would suggest
that an Affidavit of Merit would not be required to
proceed against IHN. That said, a more thorough
review of New Jersey precedent on this topic
suggests that the inquiry contains another layer.
Pursuant to relatively recent precedent from
the Superior Court of New Jersey, Appellate
Division, it appears that in certain circumstances,
New Jersey requires an Affidavit of Merit be filed in
order to proceed against “non-licensed persons”
where the relationship between the licensed person
and the non-licensed person is uniquely close, and
the underlying claims sound in professional
negligence or malpractice. See McCormick v. State,
144 A.3d 1260, 1266 (N.J. Sup. Ct. App. Div. 2016).
As New Jersey State Courts have explained, the
purpose of this rule is to prevent plaintiffs from
dodging the Affidavit of Merit requirement by
simply suing non-licensed entities for conduct
otherwise covered by the Affidavit of Merit Statute.
See Id.
While examples are limited, McCormick
provides a helpful discussion of the issue. In
McCormick, the plaintiff alleged that he received
inadequate medical care at UMDNJ and Rutgers
University Correctional Health Care while
incarcerated in South Woods State Prison.
McCormick, 144 A.3d at 1264. Instead of suing the
18a

medical providers directly, for which the plaintiff
certainly would have required an Affidavit of Merit,
the plaintiff brought an action only against South
Woods State Prison alleging that the medical staff
had committed malpractice in treating him. Id. The
prison moved to dismiss the plaintiff’s complaint on
the ground that an Affidavit of Merit had not been
filed against it. Id. The plaintiff argued that no
Affidavit of Merit was necessary as the prison was
not a “licensed person” or “licensed health care
facility” within the plain meaning of the Affidavit of
Merit Statute. Id. at 1264-65.
The Appellate Division discarded the
plaintiff’s argument, finding that it was “based on a
hyper-literal reading of the AOM statute” and does
not “excuse plaintiff from his failure to supply a
proper affidavit to support his claims that
fundamentally
are
allegations
of
medical
negligence.” Id. at 1265. The Appellate Division
concluded that litigants cannot avoid the Affidavit of
Merit Statue in medical negligence cases by simply
choosing to sue an entity that does not fall within
the scope of the statute. See Id. at 1265 (a plaintiff
“cannot avoid the important screening mechanism of
the AOM statute by suing only the . . . entity that
procured the services of the individual health care
professionals who worked at the prison”).
In McCormick, the Appellate Division
instructed that the proper focus in determining
whether an Affidavit of Merit is necessary is on “the
nature of the underlying conduct of the medical
personnel who allegedly harmed the injured
plaintiff.” Id. at 1266. “A plaintiff cannot circumvent
19a

the intent of the Legislature by suing only the . . .
entity.” Id.
While IHN may not be a licensed person
under the statute, McCormick counsels towards
barring Plaintiff’s claim against IHN. Plaintiff’s
Amended Complaint confirms that the purportedinadequate staffing claim is just a modified
presentation of the medical malpractice and medical
negligence claims. Plaintiff attempted to proceed on
the exact same theory against IMC and this Court
dismissed that claim for want of an Affidavit of
Merit. It would be absurd to permit such a claim to
proceed against IHN without an Affidavit of Merit
where this Court already concluded that the same
claim must fail against IMC. This Court reads
McCormick to support just that conclusion.
Nonetheless, the Court need not definitively decide
whether an Affidavit of Merit was required as the
record lacks evidence that IHN had any
responsibility for staffing IMC’s nephrology
department.
ii.

Whether There is Enough Evidence to
Survive Summary Judgment

IHN argues that Plaintiff fails to present
sufficient evidence in support of her claim to survive
summary judgment. Plaintiff argues that ample
factual and expert evidence exists to grant summary
judgment in her favor.
As previously discussed, Plaintiff’s theory
appears to be that IHN is directly liable for
Mendoza’s injuries because IHN failed to properly
20a

staff IMC’s dialysis unit. See (ECF No. 90 at 5; ECF
No. 5 at ¶¶9-13; Docket 87 at ¶10).
Plaintiff’s case hinges on a note entered in
Mendoza’s discharge summary:
HOSPITAL COURSE: Over the course of the
patient's hospital stay, he tolerated BiPAP
and required dialysis. Unfortunately[,] he was
unable to tolerate full treatments and
continued to build up fluid. The patient
unfortunately had some difficulty receiving
dialysis in our intensive care unit due to
staffing limitations, which continued to
exacerbate his continued difficulties with his
fluid overload state.
Plaintiff points to the testimony of IHN
(through its corporate designee Dr. Linn) for
support. Plaintiff argues that IHN’s testimony
proves that IHN was responsible for staffing the
nephrology department at IMC. See (ECF No. 87-1
at 7-8). A review of Dr. Linn’s deposition proves
otherwise.
IHN was deposed solely on the basis of its
involvement with cardiology staffing at IMC.
Colloquy amongst counsel at the outset of the
deposition underscores that point. Plaintiff’s counsel
notes for the record that Dr. Linn’s deposition was
limited to the “extent of the relationship between
Inspira and Dr. Zinn.” (ECF No.87-9 (“Linn Dep.”)
at 1T5:1-5).

21a

Dr. Linn testified that he was the Chief
Medical Officer at IHN. (Linn Dep. at 1T6:14-15).
Dr. Linn was asked whether he has “any
relationship with the scheduling of whether or not
there are cardiologists available at Inspira[,]” to
which Dr. Linn responded, “I make sure that we
have cardiology available.” 5 (Linn Dep. at 1T7:1421). In clarifying IHN’s role, Dr. Linn later testified
that “actually, each group provides continuous
coverage. My responsibility is to make sure there’s
an emergency call list” in case coverage lapses.
(Linn Dep. at 1T9:17-22). The questioning continued
regarding the relationship between IHN and the
Cardiology Defendants: Plaintiff inquired about
whether IHN ever spoke to the Cardiology
Defendants about Mendoza’s care, to which IHN
indicated it had not. (Linn Dep. at 1T11:19-21). IHN
testified it had not reviewed the records for care
provided to Mendoza by the Cardiology Defendants.
(Linn Dep. at 1T15:20-22). Plaintiff also inquired
about staffing policies regarding “staffing of
cardiologists[.]” (Linn Dep. at 1T14:18-20).
What Plaintiff did not do is obtain proof that
IHN had any responsibilities relating to the staffing
of the nephrology group at IMC. While Plaintiff
suggests that “there is no reason to believe the
procedures would be different than those testified to
as to cardiology[,]” (ECF No. 87, ¶21), mere
speculation is insufficient to survive summary
judgment. See Brown v. R.R. Grp. LLC, 350 F. Supp.
While Dr. Linn testified on behalf of IHN as a corporate
designee, the questions and answers appearing in the
transcript leave unclear whether Dr. Linn was testifying in his
own capacity, or in his capacity as a corporate designee.

5

22a

3d 300, 310 (D.N.J. 2018) (Hillman, J.) (“Speculation
does not create a genuine issue of fact; instead, it
creates a false issue, the demolition of which is a
primary goal of summary judgment.”) (citations
omitted).
Simply put, the record is entirely devoid of
evidence suggesting IHN had any involvement in
staffing the nephrology group at IMC. As such,
Plaintiff’s inadequate staffing claim will be
dismissed. The Court notes for clarity that, in
disposing of this claim, the Court has resolved all
claims against the Inspira Defendants.
D.

Motions Relating to the Cardiology
Defendants

The Cardiology Defendants argue summary
judgment should be granted in their favor because
Plaintiff has not produced evidence demonstrating
that the Cardiology Defendants breached their
standard of care. The Cardiology Defendants
particularly argue that, when the standard of care
offered Dr. Charash is applied to the undisputed
material facts, it becomes clear that the Cardiology
Defendants did not commit malpractice.
Plaintiff argues that Dr. Charash offers
sufficient testimony regarding the Cardiology
Defendants’ deviation from the standard of care, and
that sufficient factual disputes exist to permit her
case to proceed.
To prove medical malpractice, a plaintiff must
prove, through expert testimony: “(1) the applicable
standard of care . . . ; (2) a deviation from that
23a

standard of care . . . ; and (3) that the deviation
proximately caused the injury . . . .” Gardner v.
Pawliw, 696 A.2d 599, 608 (N.J. 1997) (citations
omitted). In other words, the law imposes upon a
doctor:
the duty to exercise in the treatment of his
patient the degree of care, knowledge and
skill ordinarily possessed and exercised in
similar situations by the average member of
the profession practicing in his field. Failure
to have and to use such skill and care toward
the patient as a result of which injury or
damage results constitutes negligence.
Schueler v. Strelinger, 204 A.2d 577, 584 (N.J.
1964). “Absent competent expert proof of these three
elements, the case is not sufficient for determination
by the jury.” Rosenberg v. Tavorath, 800 A.2d 216,
225 (N.J. Super. Ct. App. Div. 2002) (citing Sanzari
v. Rosenfeld, 167 A.2d 625, 628 (N.J. 1961)). The
Cardiology Defendants focus almost exclusively on
the second element of the malpractice standard:
whether a deviation of the standard of care
occurred.
This Court previously examined Dr.
Charash’s testimony regarding the standard of care
required of the Cardiology Defendants. The Court
recognized Dr. Charash’s opinion that “the standard
of care required treating Mr. Mendoza as if he could
be impacted by an acute coronary event, which
further
placed
him
at
risk
for
acute
decompensation.” Mendoza, 2019 U.S. Dist. LEXIS
69402, at *15.

24a

As this Court previously wrote, Dr. Charash’s
deposition testimony appears to modify the proposed
standard of care:
Q: . . . You would agree with me, would you
not, Doctor, that in your two reports you do
not criticize Dr. Zinn or any member of CADV
[(The Heart House)] directly?
A: Correct. Because I was not provided any
discovery deposition testimony I had no
foundation to know who was making clinical
decisions.
Q: And is that still true as you sit here today,
Doctor?
A: Yes
Q: So as you sit here today you do not have
any direct criticisms of Dr. Zinn or any
physician at CADV; correct?
A: I don’t know their specific role in the case.
Whoever was in charge of managing this
patient I would be critical of.
Q: Okay. And you know from your review of
the records that the attending physicians
managing this patient were the internal
medicine specialists at Inspira; true?
A: Yes. I mean some of the day-to-day, yes.

25a

Q: Well, you know that they saw him every
day; don’t you?
A: Yes, I said day-to-day.
Q: Correct. They were managing him day-today; correct?
A: Yes.
Id. at *15-17.
As such, this Court previously concluded that
“[i]t is only in the situation when a cardiologist is
also the individual making overall clinical decisions
that a cardiologist’s standard of care would require
considerations of intubation and dialysis[.]” Id. at
*16-17.
This Court suggested that if Cardiology
Defendants could present indisputable proof that an
internal medicine team – not Cardiology Defendants
– dictated the clinical decisions at issue, that
dismissal might be appropriate. Id. at *17-18
(“Cardiology Defendants have not provided the
Court with what it believes is indisputable proof
that an internal medicine team - not Cardiology
Defendants - dictated the clinical decisions at-issue.
If that were the case, the Court might be able to
finally determine whether there is a genuine dispute
of material facts as to breach.”). As the Court wrote,
“[i]t is only if Cardiology Defendants were in charge
of day-to-day care and the nephrology and
pulmonary specialists failed to appropriately treat
Mr. Mendoza that Cardiology Defendants could be
said to have breached their duty of care, at least
according to the expert testimony of Charash.” Id. at
26a

*18-19. As such, this Court explained, “[t]he case
against the Cardiology Defendants appears to hinge
upon whether Zinn was making clinical decisions or
whether those decisions were made by others.” Id. at
*21.
Cardiology Defendants have presented
evidence that they were not making clinical
decisions relating to Mendoza’s care, but rather
served as consultants for others who were.
Cardiology Defendants produced an affidavit of Dr.
Zinn addressing the issues this Court previously
highlighted in its April 24, 2019 Opinion. According
to Dr. Zinn’s affidavit, ”[a]t Inspira, the admitting
physician/group is the coordinator of the patient’s
care
and
oversees
same
throughout
his
hospitalization, including the determination of what
specialty consultations are required and selecting
the physicians/groups to perform the specialty
consultations.” (ECF No. 86-6, ¶3). The record shows
that, upon admission to the hospital, Mendoza was
chiefly cared for by the internal medicine group
and/or the pulmonary consultants, not the
Cardiology Defendants. (ECF No. 86-6, ¶¶4-7).
Dr. Zinn certifies that “[w]ith respect to
hemodialysis, I do not have the training or
credentials to perform the procedure. As a
consulting cardiologist I do not have authority to
order that hemodialysis be performed. Nor can I
replace the nephrologist or the nephrology group
selected by the attending physician with another
nephrologist or nephrology group.” (ECF No. 86-6,
¶5).

27a

Plaintiff has not identified any competing
evidence. Therefore, the only evidence before this
Court is that the Cardiology Defendants were not
making clinical decisions as to Mendoza’s care;
instead, they were simply consulting at the behest of
other physicians. Under the standard of care
dictated by Plaintiff’s own expert, Plaintiff cannot
sustain the current action against the Cardiology
Defendants. To paraphrase the words of their own
expert, Plaintiff has offered no evidence that the
Cardiology Defendants did anything wrong. As such,
the Court will grant the Cardiology Defendants’
Motion for Summary Judgment.
CONCLUSION
For the reasons expressed above, Defendants’
Motions for Summary Judgment (ECF Nos. 83 and
86) will be granted. Plaintiff’s Motion for Partial
Summary Judgment (ECF No. 87) will be denied.
Because resolution of the pending motions resolves
this matter entirely, the parties’ Motions in Limine
(Docket Nos. 104, 105, and 106) will be denied as
moot.
An appropriate Order will be entered.
s/Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.
Date: October 17, 2019
At Camden, New Jersey

28a

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
________________________
GLADYS MENDOZA,
:
personal representative :
of ELIAS MENDOZA
:
Plaintiff,
:
:
:
v.
:
:
INSPIRA MEDICAL
:
CENTER VINELAND, :
SOUTH JERSEY
:
HEALTHCARE,
:
INSPIRA HEALTH
:
NETWORK, INC.,
:
ANDREW ZINN, M.D., :
THE HEART HOUSE,
:
NAEEM M. AMIN, M.D., :
AND KIDNEY AND
:
HYPERTENSION
:
SPECIALISTS, P.A.
:
Defendants. :
________________________

Civil No. 15-1337
(NLH/KMW)

ORDER

HILLMAN, District Judge
For the reasons expressed in the Court’s
Opinion filed today,
IT IS on this 17th day of October , 2019

29a

ORDERED that Defendants’ Motions for
Summary Judgment (ECF Nos. 83 and 86) be, and
the same hereby are, GRANTED; and it is further
ORDERED that Plaintiff’s Motion for Partial
Summary Judgment (ECF No. 87) be, and the same
hereby is, DENIED; and it is further
ORDERED that the parties’ Motions in
Limine (Docket Nos. 104, 105, and 106) are
DENIED AS MOOT; and it is further
ORDERED that the Clerk of the Court shall
mark this matter as CLOSED.
s/Noel L. Hillman
NOEL L. HILLMAN, U.S.D.J.
Date: October 17, 2019
At Camden, New Jersey

30a

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
No. 19-3434
_____________
GLADYS MENDOZA,
Personal Representative of Elias Mendoza,
Appellant
v.
INSPIRA MEDICAL CENTER VINELAND;
SOUTH JERSEY HEALTH CARE; INSPIRA
HEALTH NETWORK, INC.; ANDREW ZINN, MD;
THE HEART HOUSE; NAEEM M. AMIN, M.D.;
KIDNEY AND HYPERTENSION SPECIALISTS,
P.A.
__________________
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 1-16-cv-01337)
District Judge: The Honorable Noel L. Hillman
____________________
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
May 27, 2020
Before: AMBRO, HARDIMAN, and RESTREPO,

Circuit Judges

(Opinion Filed: June 2, 2020)

31a

_____________________
OPINION ∗
_____________________
HARDIMAN, Circuit Judge.
In 2014, Elias Mendoza was admitted to the
Intensive Care Unit at Inspira Medical Center
Vineland (Vineland) with shortness of breath.
Mendoza had fluid overload in his lungs, so the
internal medicine group that handled his care at
Vineland ordered, among other things, a cardiology
consultation that was performed by Dr. Andrew
Zinn. Id. Four days after his admission to the
hospital, Mendoza suffered a respiratory and cardiac
arrest, leading to a permanent anoxic brain injury.
Less than a year later, Mendoza died from acute
respiratory failure as a result of cardiac arrest and
coronary artery disease.
As relevant to this appeal, Mendoza’s wife
Gladys, in her capacity as personal representative of
his estate, sued Inspira Health Network (Inspira),
Dr. Zinn, and The Heart House, alleging medical
negligence. She based this claim on a note in her
husband’s discharge summary stating he had
difficulty receiving dialysis while at Vineland
because of the ICU’s staffing limitations. After
discovery, Plaintiff failed to adduce evidence
sufficient to show Inspira had any responsibility to
staff the dialysis unit, or that Dr. Zinn or The Heart
This disposition is not an opinion of the full court and
pursuant to I.O.P. 5.7 does not constitute binding precedent.

∗

32a

House breached their standard of care. So the
District Court granted those three Defendants
summary judgment. See Mendoza v. Inspira Medical
Center Vineland , 2019 WL 5304129, at *11 (D.N.J.
Oct. 17, 2019). This appeal followed.1
Our careful review of the record and the
various opinions leads us to conclude that we could
scarcely improve on the work of the learned trial
judge. As a procedural matter, the District Court
addressed the issues methodically and gave Plaintiff
opportunities to amend her complaint and hone her
arguments. And substantively, we perceive no
factual or legal error in the Court’s conclusions that:
(1) an affidavit of merit was required against
Inspira; (2) Plaintiff failed to adduce evidence that
Inspira had any responsibilities relating to the
staffing of the dialysis unit; and (3) Plaintiff failed
to marshal evidence sufficient to demonstrate that
Dr. Zinn or The Heart House violated their standard
of care. Accordingly, we will affirm for substantially
the same reasons explained by the District Court.

1

The District Court had jurisdiction under 28 U.S.C. § 1332.
We have jurisdiction under 28 U.S.C. § 1291 and exercise de
novo review. See Weitzner v. Sanofi Pasteur Inc. , 909 F.3d
604, 609 (3d Cir. 2018).

33a

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________________
No. 19-3434
___________________
GLADYS MENDOZA,
Personal Representative of Elias Mendoza,
Appellant
v.
INSPIRA MEDICAL CENTER VINELAND;
SOUTH JERSEY HEALTH CARE; INSPIRA
HEALTH NETWORK, INC.; ANDREW ZINN, MD;
THE HEART HOUSE; NAEEM M. AMIN, M.D.;
KIDNEY AND HYPERTENSION SPECIALISTS,
P.A.
____________________________________
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 1-17-cv-00039)
District Judge: The Honorable Noel L. Hillman
____________________________________
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
May 27, 2020
Before: AMBRO, HARDIMAN, and RESTREPO,

Circuit Judges

34a

__________________
JUDGMENT
__________________
This cause came on to be considered on the
record from the United States District Court for the
District of New Jersey and was submitted pursuant
to Third Circuit L.A.R. 34.1(a) on May 27, 2020. On
consideration whereof, it is now hereby
ORDERED and ADJUDGED that the
judgment of the United States District Court for the
District of New Jersey entered on October 18, 2019
is hereby AFFIRMED. All of the above in accordance
with the Opinion of this Court.
Costs shall be taxed against Appellant.
ATTEST:
s/Patricia S. Dodszuweit
Clerk
Dated: June 2, 2020

35a

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
No. 19-3434
_____________
GLADYS MENDOZA,
Personal Representative of Elias Mendoza,
Appellant
v.
INSPIRA MEDICAL CENTER VINELAND;
SOUTH JERSEY HEALTH CARE;
INSPIRA HEALTH NETWORK, INC.; ANDREW
ZINN, MD; THE HEART HOUSE;
NAEEM M. AMIN, M.D.; KIDNEY AND
HYPERTENSION SPECIALISTS, P.A.
__________________
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 1-16-cv-01337)
District Judge: The Honorable Noel L. Hillman
____________________
SUR PETITION FOR PANEL REHEARING
____________________
Present: AMBRO, HARDIMAN, and RESTREPO,
Circuit Judges.

36a

The petition for rehearing filed by Appellant
in the above-entitled case having been submitted to
the judges who participated in the decision of this
Court, it is hereby ORDERED that the petition for
rehearing by the panel is denied.
BY THE COURT,
s/ Thomas M. Hardiman
Circuit Judge
Dated: July 1, 2020
JK/cc: All Counsel of Record

37a

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________________
No. 19-3434
___________________
GLADYS MENDOZA,
Personal Representative of Elias Mendoza,
Appellant
v.
INSPIRA MEDICAL CENTER VINELAND;
SOUTH JERSEY HEALTH CARE; INSPIRA
HEALTH NETWORK, INC.; ANDREW ZINN, MD;
THE HEART HOUSE; NAEEM M. AMIN, M.D.;
KIDNEY AND HYPERTENSION SPECIALISTS,
P.A.
____________________________________
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 1-17-cv-00039)
District Judge: The Honorable Noel L. Hillman
____________________________________
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
May 27, 2020
Before: AMBRO, HARDIMAN, and RESTREPO,

Circuit Judges

38a

__________________
JUDGMENT
__________________
This cause came on to be considered on the
record from the United States District Court for the
District of New Jersey and was submitted pursuant
to Third Circuit L.A.R. 34.1(a) on May 27, 2020. On
consideration whereof, it is now hereby
ORDERED and ADJUDGED that the
judgment of the United States District Court for the
District of New Jersey entered on October 18, 2019
is hereby AFFIRMED. All of the above in accordance
with the Opinion of this Court.
Costs shall be taxed against Appellant.
ATTEST:
s/Patricia S. Dodszuweit
Clerk
Dated: June 2, 2020
Certified as a true copy and issued in lieu of a
formal mandate on 07/09/2020
Teste: s/Patricia S. Dodszuweit
Clerk, U.S. Court of Appeals for the Third Circuit

39a

